GOVERNMENTAL LAW, LLC

Brandy R. Johnson
Thomas J. Freeman

 

February 4, 2020
By hand delivery & e-file
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543

Re: Melanie Kelsay v. Matt Ernst, No. 19-682

Dear Mr. Harris:

8040 Eiger Drive
Suite B
Lincoln, NE 68516

Telephone: 402.742.9240
Fax No: 402.742.9250

brandy@nrmainc.info
tom@nrmainc.info

| represent the Respondent in the above-referenced case, in which a petition for
certiorari is pending. | received the docket entry advising of the call for response on
January 13, 2020. Absent an extension, the response would be due on February 12,
2020. | respectfully request a 30-day extension of time, to and including March 13, 2020,
in which to file the response. This is the first extension Respondent has sought. | have
contacted counsel for Petitioner, and am authorized to represent that he has no objection

to the requested extension.

A 30-day extension to and including March 13, 2020 will ensure that | have
sufficient time to fully analyze and respond to the arguments raised in the petition for

certiorari in this case, as well as the later-filed amicus brief.

Respectfully submitted,

Brandy R. Johnson
Counsel for Respondent

cc: David Michael Shapiro
Counsel for Petitioner
